CERTIFICATE OF SERVICE
I hereby certify that, pursuant to Rules 29.3 and 29.5(b), one (1) copy of the
UNOPPOSED MOTION FOR EXTENSION OF TIME TO SUBMIT BRIEF IN OPPOSITION
TO ISSUANCE OF WRIT OF CERTIORARI was mailed today, July 20th, 2021, to the legal
representatives of all parties in the instant case by first class mail and electronic mail to the postal
and electronic addresses listed below, respectively. Mailing envelopes were plainly addressed to
the following:
MICHAEL F. STURLEY
Counsel of Record
727 East Dean Keeton Street
Austin, Texas 78705
(512) 232-1350
msturley@law.utexas.edu
ALBERTO J. CASTANER
CASTANER & CIA P.S.C.
MAI Center
771 CII I, Suite 204
San Juan, PR 00920
(787) 707-0802
alberto@castanerlaw.com

S/ FERNANDO J. COLLAZO-VALLE
Counsel of Record for Respondent

SERVICE LIST

MICHAEL F. STURLEY
Counsel of Record
727 East Dean Keeton Street
Austin, Texas 78705
(512) 232-1350
msturley@law.utexas.edu
ALBERTO J. CASTANER
CASTANER & CIA P.S.C.
MAI Center
771 CII I, Suite 204
San Juan, PR 00920
(787) 707-0802
alberto@castanerlaw.com

